ii
1

IN THE

u> 3

-SUPREME COURT OF THE UNITED STATES

NO:

a

o

O.B. DAVIS, JR.

FILED
AUG 2 3 2021

VERSUS
KEITH DEVILLE, WARDEN, WINN CORRECTIONAL CENTER;

OFFICE OF THE CLERK
SUPREME COURT ii

JOHNNY SUMLIN,WARDEN,CLAIBORNE PARISH DETENTION CENTER,

ON PETITION FOR APPLICATION FOR WRIT OF CERTIORARI
TO THE UNITED STATES SUPREME COURT FROM THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT'S DENIAL OF APPEALABILITY

No.: 20 -30631

PETITION OF DEFENDANT, O.B DAVIS, JR,

Respectfully submitted by:

O.B. Davis, Jr., Petitioner, pro se
Claiborne Parish Detention Center
1415 Hwy. 520
Homer, LA 71040

_ m

Question and Issues presented:

1.

Whether the Court's adjudication of this case ensue from a decision that was to, or involve an
unreasonable application of, clearly established law as recognized by the United States
Supreme Court under Schulp v. Delo?

2.

Whether the Court has deviated materially from established jurisprudence by allowing
prosecutor's to withhold evidence from the petitioner that was favorable to the proving of his
innocence and further use it against him in order to ensue a conviction?

3.

Whether the Constitutional requirement of due process is satisfied where a conviction is
obtained on the sole basis of a witness' testimony that was admitted by this witness to be
presented under false pretense?

4.

Whether the Appellate Court acutely determine that the circumstantial evidence used against
this petitioner was sufficiently reasonable in its application?

5.

Whether the Court's affirming of petitioner's conviction violate his due process rights under the
Fourteenth Amendment of the United States Constitution and the Eight Amendment's
prohibition against cruel and unusual punishment?

STATEMENT OF .JURISDICTION:
Jurisdiction is vested in this Honorable Court by virtue of Article V, Section 10 of the Louisiana
Constitution of 1974, and by Rule X and Rule XIII of the Rules of the Supreme Court of the United
States.
NOTICE OF PRO-SE FILING:
Petitioner request that this Honorable Court view these Claims in accordance with the rulings
of Haines v. Kemer. 404 U.S. 519, 92 S. Ct. 594, 30 L. Ed. 2d. 652 (1972); State v. Moak. 387 So.2d.
1108 (La. 1980)(Pro-se petitioner not held to same stringent standards as a trained lawyer); State v.
Egana. 771 So.2d. 638 (La. 2000)(less stringent standards than formal pleadings filed by lawyers).
Petitioner is a layman of the law and untrained in the ways of filings and proceedings of formal
pleadings in this Court.
MAY IT PLEASE THIS HONORABLE COURT:
NOW INTO COURT COMES, Petitioner,O. B. Davis, in pro-se' capacity, who respectfully
applies to this Honorable Court to issue a Writ of Certiorari to review the judgement of the United
States Court of Appeal, for the Fifth Circuit, for the denial of his petition for writ of habeas corpus
pursuant to U.S.C. § 2254 @ USDC No. 2:19-CV-1107; in accordance with this Court's Rule X and
Rule XIII, petitioner presents the following reasons in support of the granting of this writ;
STATEMENT OF FACTS:
1.

On June 17, 2013 before the Thirty-First Judicial District Court, with his attorney of record, W.
J. Riley, III. Through counsel, Mr. Davis withdrew his previous plea of not guilty and entered a
pea of nolo contendre or “No Contest” to the lesser included offense of Forceable Rape, La.
R.S. 14:42.1. The state at this time was represented by Bennett R. Lapoint, Asst. District
Attorney. Mr. Lanpoint stated the factual basis for the record and offered for filing into evidence
as state's exhibit S-l, the CAC interview with the drawings: as State's exhibit S-2, in globo, the
medical reports; and State's exhibit S-3, the written statement by witness Krystal Mallet. The
court ordered the state's exhibits filed into the record and placed under seal. The victim in this
matter whose initials are T. P., a minor, wrote an impact statement in which Mr. Lanpoint read
into open court. Upon completion, he offered the impact statement for filing into record. The
court ordered the offering filed into record. Whereupon, the court sentenced Mr. Davis to serve
twenty (20) years at hard labor with the Louisiana Department of Public Safety and Corrections.
(DOC, 7, p. 1.) The court then ordered that the first two (2) years of the sentence be served
without the benefit of probation, parole, or suspension of sentence and that the sentence run
concurrently to Petitioner's probation revocation in CR - 1804 - 07. The court also gave
Petitioner credit for all time previously served. Prior to accepting the nolo contendere plea, the
court Boykinized the defendant. Throughout these proceedings, Petition was represented by Mr.
W. J. Riley, III.

2.

Mr. Davis then filed motions for production of documents into the trial court, which were
subsequently denied in part. Petitioner sought review in the Third Circuit court of appeal on
September 19, 2013. (Davis v. State of Louisiana, 2:15 - cv - 2564, DOC . 1, attorney. 1, p. 14).

The Third Circuit Denied his application as deficient on November 18, 2013. Id. Davis sought
review in the Louisiana Supreme Court, which denied same on August 28, 2015. Id. at 20.
3.

Petitioner's Uniform Application for Post Conviction Relief was filed into the Thirty-first
Judicial Court. An evidentiary hearing was granted and scheduled for September 8th, 2016.

4.

On November 4, 2016 Petitioner appeared in court with court appointed counsel Mr. Tim
Cassidy for a post-conviction relief hearing to admit and/or present newly discovered evidence.
Petitioner was denied relief in said hearing.

5.

Indigent inmates must be provided with a free copy of the following documents: transcripts of
their guilty plea colloquies, copies of the Bill of Information or Grand Jury Indictment charging
them with an offense, copies of the district court minutes for various portions of their trials,
copies of the transcripts of evidentiary hearings held on their applications for post-conviction
relief, and copies of documents committing them into custody.

6.

Petitioner was deemed to be an indigent inmate who was not previously provided with a copy of
the transcripts from the evidentiary hearing held on his post-conviction relief application on
November 4, 2016.

7.

On March 7, 2017, 31st Judicial District Judge The Honorable Craig Steve Gunnell ordered
petitioner a copy of the hearing transcripts.

8.

On May 17, 2018, the Third Circuit court of Appeal denied Petitioner's writ of review. (NO: KH
17-00512). The Third circuit's reasons for denying petitioner's post-conviction was that it was
deficient, and that it did not comply with La. C. Cr. P. Art. 912.1(C), Uniform Rules - Court
of Appeal, Rule 4-5, Third Circuit Internal Rule 16, and City of Baton Rouge v. Plain, 433
So.2d 710 (La.), Cert. Denied, 464 U.S. 896, 104 S. Ct. 246 (1983).

9.

On May 6, 2019, the Louisiana Supreme Court, in a Per Curiam decision, denied Petitioner's
supervisory and/or remedial writs. (2018 -KH-1156) Stating that Petitioner failed to show he
was denied access to the courts by an unjustified enforcement of the uniform rules governing
the filing of applications in the court of appeal, and thus shows no error in the court of appeal's
denial of writs on technical grounds._La. C.Cr.P. Art. 912.1(C).

10.

On the 25th day of November, 2019, Magistrate Judge Kay issued a report and recommendation,
asserting that petitioner's habeas be denied on basically procedural issues.

11.

On or about December 14, 2019, Petitioner filed an objection to Magistrate Judge Kay's
recommendation.

12.

On December 26, 2019, Petitioner received a judgment order Denying petitioner's writ and
Dismissing it with prejudice.

13.

Petitioner filed motion for Certificate of Appealability.

14.

On January 9, 2020 Motion was denied.

15.

On January 15, 2020 Petitioner was notified by United States Court of Appeals that before he

must apply for Certificate of Appealablity to comply with 28 U.S.C. & 2253.
16.

On June 11, 2021 the court entered judgment under Fed. R. App. P. 36 and now petitioner
petitions for panel rehearing.

17.

On June 23, 2021 the Petitioner was advised by the court that the there will be no action taken
on his petition for rehearing under FED. R. APP. P. 40 has expired.

18.

On June 24, 2021 the court dismissed Petitioner's writ of habeas corpus without prejudice for
lack of subject matter jurisdiction.

19.

Your Petitioner now submits this Application for Writs of Review so that this Court may make
determination of whether the issues cited herein would have had a significant impact on the
outcome of these proceedings.

STATEMENT OF THE CASE:
The petitioner, hereinafter Mr. Davis, pleaded nolo contendere to the charge of forcible rape.
He was sentenced to twenty years' imprisonment and did not appeal his sentence or conviction. On
April 28th, 2016, Mr. Davis received a letter from Ms. Krystal Mallet -a witness who made inculpatory
statements prior to Mr. Davis's plea. In her letter, Ms. Mallet asserts that Mr. Davis's victim admitted to
lying to her about the rape. Mr. Davis submitted this letter into the court's arguing that his conviction
was obtained using Ms. Mallett's false testimony in violation of the Fourteenth Amendment of the
United State's Constitution.
ARGUMENT SUFFICIENCY
I.

Petitioner argues that if the knowledge of Ms. Mallet's testimony being false were to
be presented before the court prior to the plea agreement the out come of the proceedings
would have been different.

Mr. Davis, has discovered, since the date of his conviction, a prejudicial error in the
proceedings that, not withstanding the exercise of reasonable diligence, was not known to him until he
had been given an affidavit from the state's witness, hereinafter Ms. Mallet, recanting testimony that
had been crucial to the prosecution's case. In the event of, Mr. Davis raised a claim which fell under the
Newly Discovered Evidence Requirement. The A.E.D.P.A.’s Sec. 2253 (c) codified the standard,
announced in Barefoot V. Estelle, 463 U.S. 880 (1983), for determining what constitutes the requisite
showing to obtain leave to appeal a district courts denial of Habeas Corpus Relief. Under the
controlling standard, a petitioner must “show that reasonable jurist could debate whether or, for that
matter agree that the petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further”, Slack v. McDaniel, 529 U.S.
473 at 484 (2000) quoting Barefoot, Supra at 893.....
The United States Supreme Court has recognized an exception to the requirement that a
petitioner demonstrate both “cause” and “prejudice,” where the Petitioner can demonstrate that failure
to consider the procedural defaulted claims will result in a fundamental miscarriage of justice because
he is actually innocent of the crimes when he was convicted. See, e.g., Noltie v. Peterson, 9 F.3d 802,
806 (9th Cir. 1993). However, in order to qualify for this “miscarriage of justice” exception, the

petitioner must “support his allegations of constitutional error with new reliable evidence—whether it
be exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical evidence that
was presented at the trial. Schulp v. Delo, 513 U.S. 298, 130 Ed 2d 808, 115 S. Ct. 85 ^(recognized-----that such evidence “is obviously unavailable in the vast majority of cases”). Further, to establish the
requisite probability that a constitutional violation probably has resulted in the conviction of one who is
actually innocent, “the petitioner must show that it is more likely than not that no reasonable juror
would have convicted him in light of the new evidence.: id. at 327.
In McQuiggin v. Perkins, _ U.S._, 133 S. Ct. 1924, 1928, 185 L. Ed. 2d 1019 (2013), the
Supreme Court held that a “convincing showing” of actual innocence under Schulp, supra, also can
overcome the AEDPA state of limitations. In Schulp, the Supreme Court has recognized that the “case
and prejudice” requirement has an “actual innocence” exception, sometimes known by other name as
the “fundamental miscarriage of justice” exception. A fundamental miscarriage of justice exception is
narrowly construed and is equivalent to actual, as opposed to legal, innocence. Sawyer v. Whitley, 505
U,S. 333, 339, 120 L. Ed.2d 269, 112 S. Ct. 2514 (1992). In Murray v. Carrier (1986) 477 U.S. 478,
91 L. Ed.2d 397, 106 S. Ct. 2639, the Supreme Court held that, in order to invoke this exception, the
Petitioner is required to show that a constitutional violation has “probably” resulted in the conviction of
one who is actually innocent.
In the case sub-judice,
On April 28th, 2016 Ms. Mallet wrote Mr. Davis a letter recanting her previous testimony. In that
she stated she lied on Mr. Davis, she expressed her reasons and apologies for doing so.
On November 4, 2017, Mr. Davis was afforded an evidentiary hearing. During the hearing Ms.
Mallet presented to the court her testimony. At this time, Mr. Davis was represented by State appointed
counsel Mr. Tim Cassidy, hereinafter Mr. Cassidy who asked Ms. Mallet a crucial question in
discernment of her truthfulness. In that, he asked her in so many words why did she write the letter and
her response was that she felt that an innocent man was not supposed to be in jail.
However, later on in this hearing Ms. Mallet contended to the court that everything in the letter
was a lie. In Juxtapose, this clearly connotes impeaching testimony. In her initial statement at time of
arrest Ms. Mallet testified to one thing. In a notarized document she testifies that what she stated in her
initial statement was fabricated and during the aforementioned hearing she asserts that her notarized
letter is a lie. Of which leaves the finding of guilt an enigma; while the innocent Mr. Davis resides
behind bars.
In State v. Neslo, Sup.1983, 433 So.2d. 73 the State was allowed to impeach the defendant with
a prior inconsistent statement that was made to the police with respect to the facts surrounding his
arrest and questioning was not improper in ground that the statement was not freely and voluntarily
given.
In State v. Washington, App. 5 Cir. 1999, 727 So.2d 673, 98-69 (La. App. 5 Cir. 1/26/99) a
police officer's hearsay testimony about a statement made by defendant's alleged fiancee regarding her
relationship to defendant was admissible to impeach alleged fiancee's trial testimony that was
inconsistent with her prior statement and that affirmatively damaged prosecution's case.
In State v. Redwine, Sup.1976, 337 So.2d 1041, Defense counsel could not protect his own
witness from impeachment by State use of prior inconsistent statement by eliciting from witness during
his direct examination an admission that such witness had given a prior statement which was entirely
different from his trial testimony.
The due process standard in U.S. Const. Amend. XIV and La. Const. Art. I, 2 does not require
the reviewing court to determine whether it believes the witness or whether it believes the evidence
establishes guilt beyond a reasonable doubt. Rather, review is limited to determining whether the facts
established by the direct evidence and inferred from the circumstances established by that evidence are

sufficient for any rational trier of fact to conclude beyond a reasonable doubt that the defendant was
guilty of every essential element of the crime. The basis of this conviction was established by means of
an untruthful testimony of which clearly connotes an act of perjury. Perjury that stemmed prior to the
"'November 4, 2017 hearing. Perjury that A.D.A Mr. Bennet R. Lapoint was aware of, and not only
aware of it, but he implemented coercing tactics to ensure it's validity.
Ms. Mallet stated that at the time she provided her initial statement she was unaware of the
truthfulness of its contents. And that she remained unaware of the fabrications until years later.
Upon finding out that she had contributed to the “locking up” of an innocent man - Ms. Mallet
located the whereabouts of Mr. Davis and mailed to him a handwritten letter of which is submitted into
evidence as an affidavit.
The Constitution prohibits the imprisonment of one who is innocent of the crime for which he
was convicted. The central purpose of any system of criminal justice is to convict the guilty and free
the innocent. See United States v. Nobles. 422 U.S. 225, 230, 45 L. Ed. 2D 141,95 S. Ct. 2160 (1975).
With respect to the standard of proof in a criminal case, the proposition is firmly established in the
nation's legal system that the line between innocence and guilty is drawn with reference to a reasonable
doubt. The district court must make a probabilistic determination about what reasonable, properly
instructed jurors would do, and it is presumed that a reasonable juror would consider fairly all of the
evidence presented and would conscientiously obey the trial court's instructions requiring proof beyond
a reasonable doubt. According to the majority, under Schulp, “the petitioner is required to present
'evidence of innocence' such that a court cannot have confidence in a trial.” What Mr. Davis now
submits into this court as newly discovered evidence is the same evidence the state used against him in
order to obtain a conviction, only now contradicted and thereby proven to be false. The question still
remains that if the jurors were aware that the testimony of Ms. Mallet was false, would they have found
him guilty? On the same note this extends to would his lawyer, in light of this evidence, have
persuaded him into the acceptance of a guilty plea on the pretense of falsified testimony?
It is an unalterable fact that our judicial system, like the human beings who administer it, is
fallible. But history is replete with examples of wrongfully convicted persons who have been pardoned
in the wake of after-discovered evidence establishing their innocence. In his classic work, Professor
Edwin Borchard compiled 65 cases in which it was later determined that individuals had been
wrongfully convicted of crimes. Clemency provided the relief mechanism of 47 of these cases; the
remaining cases ended in judgments of acquittals after new trials. E. Borchard, Convicting the Innocent
(1932).

II.

Petitioner further avers that the Court has deviated materially from established
jurisprudence by allowing prosecutor's to first withhold evidence of which is in direct
violation of Brady v. Maryland and further present it i.e., Ms. Mallet's testimony and use
it to their advantage while being aware of its fabrications.

Mr. Davis, alleges that the state prosecutors were aware that the testimony of Ms. Krystal
Mallet consisted of falsified information and that as prosecutors, each attorney should be familiar with
the Prosecutor's creed as articulated in Berger v U.S. (1935);
The District Attorney is the representative not of ordinary party to a controversy, bit
sovereignty, whose obligation to govern impartially is as compelling as its obligation to
govern at all; and whose interest therefore, in a criminal prosecution is not that it shall
win a case, but that justice shall be done. As such, he is in a peculiar and very definitive
sense the servant of the law, the twofold aim of which is that guilt shall not escape or
innocence suffers. He may prosecute with earnestness and vigor - indeed, he should do

so. But, while he may strike hard blows, he is not at liberty to strike foul ones. It is as
much his duty to refrain from improper methods calculated to produce a wrongful
conviction, as it is to use very legitimate means to bring about a just one.
Moreover, these concepts have also been embodied in Rule 38 of the Louisiana Rules of
Professional Conduct, entitled Special Responsibilities of a Prosecutor.
In Rule 38 (d) the prosecutor in a criminal case shall:
(d) make timely disclosure to the defense of all evidence or information known to the
prosecutor that the prosecutor knows, or reasonably should know, either tends to negate
the guilt of the accusal or mitigates the offense, and, in connection with sentencing,
disclose to the defense and to the tribunal all unprivileged mitigating information known
to the prosecutor, except when the prosecutor is relieved of this responsibility by a
protective order of the tribunal.
The United States Supreme Court in Brady v. Maryland held that the suppression, after a
request, of any evidence favorable to a defendant, where the evidence is material either to guilt or
punishment, regardless of the prosecutors good faith or bad faith, faith, violators Due Process. Brady
v. Maryland, infra. In Giglia v. U.S., 405 U.S. 150 (U.S. 1972).”
Mr. Davis contends that the state withheld this falsified information in direct violation of
Brady V. Maryland, 373 U.S. 83, 10 L. Ed.2d 215, 83 S. Ct. 1194 (1963)( and its progeny). Brady
material is information or evidence that: impeaches a prosecution witness; tends to exonerate a
defendant; involves dishonesty; shows improper use of force; or tends to show bias. Favorable
evidence includes both exculpatory evidence and evidence impeaching the testimony of a witness when
the reliability or credibility of that witness may be determinative of the defendant's guilt or innocence.
United States v. Bagley, 473 U.S. 667, 105 S. Ct. 3375, 87 L. Ed. 2D 104 (1972). Examples of
possible impeachment evidence of a material witness include but are not limited to: (1) False reports by
a prosecution witness (2) Pending criminal charges against a prosecution witness (3) Parole or
probation status of the witness; (4) Evidence contradicting a prosecution witness' statements or reports
(5) Evidence undermining a prosecution witness' expertise (6) A finding of misconduct tht reflects on
the witness' truthfulness, bias or moral turpitude (7) Evidence that a witness has a reputation of
untruthfulness (8) Evidence that a witness has a racial, religious or personal bias against the defendant
individually or as a member of a group (9) Promises, offers, inducements or payments to a witness,
including an implied grant of immunity, and (10) An employee presently under suspension. When
Brady is withheld, a defendant is entitled to a new trial, if, the evidence is material. Meaning, if there is
a reasonable probability that, had the evidence been disclosed to the defense, the result of the
proceeding would have been different. A 'reasonable probability' is a probability sufficient to
undermine confidence in the outcome. United States v. Bagley, supra, at 678.
Mr. Davis avers that the truthfulness of Ms. Mallet's testimony should be allowed to be
determined by the jurors. A recantation is a confession to perjury which destroys the credibility of the
witness. State v. Link letter, 345 so.2d 452 (la 1977), cert denied. 434 U.S. 1016, 98 S. Ct. 733, 54 L.
Ed 2d 760 (1978). In this case, the falsified “testimonies” of Ms. Mallet could have more than likely
“would have” affected his decision as to whether or not he would have accepted the prosecutors plea
agreement.
III.

Mr. Davis further avers that the Eight Amendment's prohibition against cruel and
unusual punishment and the Fourteenth Amendment's guarantee of the right to due
process of law therefore forbid his incarceration, because he is “Actually innocent” of the
charge of Forceable rape.

Mr. Davis was convicted on circumstantial evidence, predominantly on the testimony of the
state's witness Ms. Mallet. The standard for the sufficiency of the evidence is whether, viewing the
evidence in a light most favorable to the prosecution, a rational trier of fact could have found that the
state proved the essential elements of the crime beyond a reasonable doubt. The rule as to
circumstantial evidence is that, assuming every fact to be proved that the evidence tends to prove, in
order to convict, it must exclude every reasonable hypothesis of innocence, La. Rev. Stat. Ann.
15:438. However, this statutory rule for circumstantial evidence does not provide a separate test from
the Jackson v. Virginia sufficiency of the evidence test whenever the state relies on circumstantial
evidence to prove an element of the crime. Although the circumstantial evidence rule may not establish
a stricter standard of review than the more general reasonable juror's reasonable doubt formula, it
emphasizes the need for careful observance of the usual standard and provides a helpful methodology
for its implementation in cases which hinge on the evaluation of circumstantial evidence, both direct
and circumstantial, must be sufficient under Jackson v. Virginia to satisfy a rational jury that the
defendant is guilty beyond a reasonable doubt.
In evaluating the sufficiency of the evidence to support a conviction, a reviewing court must
determine whether, viewing the evidence in the light most favorable to the prosecution, any trier of fact
could have found proof beyond a reasonable doubt of each of the essential elements of the crime
charged. Jackson v. Virginia, 443 U.S. 307, 99 S. Ct. 2781, 61 L. Ed. 2D 560 (1979); State v.
Captville, 448 So. 2D 676, 678 (La. 1984). Additionally, where circumstantial evidence forms the basis
of the conviction, the evidence must exclude every reasonable hypothesis of innocence, “assuming
every fact to be proved that the evidence tends to prove.” La. R.S. 15: 438; See, State v. Neal, 2000674 p.9 (La. 6/2 9/01), 796 So. 2D 649, 657, cert. Denied, 535 U.S. 940, 122 S. Ct. 1323, 152 L. Ed.
2D 231 (2002). The statutory requirement of La. R.S. 15:438 “ works with the Jackson constitutional
sufficiency test to evaluate whether all evidence, direct or circumstantial, is sufficient to prove guilt
beyond a reasonable doubt to a rational jury.” Neal, 2000-0674 p.9, 796 So. 2D at 657. State v.
Draughn, 05-1825, p.7 (La. 1/1 7/07), 950 So. 2d. 583, 592, cert. Denied, 522 U.S. 1012, 128 S. Ct.
537, 169 L. Ed. 2D 377 (2007).
In the matter at hand, Ms. Mallet's testimony was the “linchpin” of the prosecution's case;
without it the state would not have had the inculpatory evidence needed to support even a showing of
probable cause for the arrest of Mr. Davis, let alone proof of guilt beyond a reasonable doubt. When
dealing with circumstances in regard to witness or victim testimony, absent internal contradiction or
irreconcilable conflict with physical evidence, one witness's testimony is sufficient to support a
defendant's conviction of a sex offense. Even where the state does not introduce medical, scientific, or
physical evidence to prove the commission of the offense. However, once a subject area on directexamination is opened, the principle that a witness should testify truthfully prevails: cross examination
of the witness to determine if she made similar statements previously is logically necessary in
evaluating her truth or credibility.”

CONCLUSION:
Mr. Davis request that this Court give careful consideration and survey the use of tactics
administered by ADA Mr. Lapoint in his endeavor towards the obtaining of this this conviction. At
this time it is clear that everything changed and what resulted was an act of duress, coercion at it's
finest - all of a sudden, Ms. Mallet's testimony makes a shift ensuing another falsified statement.
What complicated this matter is that these conflicting statements are being denied the right of being
presented before a jury. When a persons statement consistently changes in contradictory methods who
knows which one of these statements possesses the truth.

PRAYER:
WHEREFORE, Petitioner respectfully prays that for the reasons presented herein, that this
Honorable Court GRANT 'tKe’ihstant writ application and therefor GRANT petitioner the relief he is
entitled to as a matter of both federal and state constitutional law.

Respectfully submitted the 23rd day of August, 2021.

Submitted by:

<T~/>

O.B. Davis Jr. #106316
Claiborne Parish Detention Center
1415 Hwy. 520
Homer, Louisiana 71040

VERIFICATION
STATE OF LOUISIANA
PARISH OF CLAIBORNE

I, O.B. Davis Jr., do hereby verify under penalties of perjury that I am the petitioner in the
foregoing petition for “Application for Writ of Certiorari ”, that I have read and/or prepared all the
matters contained therein, and that all matters contained therein, are true and/or correct to the best of
my knowledge and/or belief.

Q.(bs

5

^A
O.B. DAVIS JR

